[Type here]

County Attorney
Diana K. May, County Attorney
719-520-6485
Centennial Hall
200 S. Cascade, Suite 150
Colorado Springs, CO 80903
www.ElPasoCo.com

Board of County Commissioners
Holly Williams, District 1
Carrie Geitner, District 2
Stan VanderWerf, District 3
Longinos Gonzalez, Jr., District 4
Cami Bremer, District 5

May 14, 2021
VIA Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Request for extension of time to file response to petition
Candace Aguilera v. City of Colorado Springs et al.
S. Ct. No. 20-1443

Dear Mr. Harris:
I am counsel for respondent Robert Mitchell in this case. Wynetta Massey, City
Attorney for the City of Colorado Springs, Colorado, is counsel for respondents City of
Colorado Springs, Danielle McClarin, Angie Nieves, Roger Vargason, and Brett Lacey
(the “City Respondents”).
Petitioner filed her petition for a writ of certiorari on April 13, 2021. According to the
online docket and pursuant to Rule 15.3 of the Rules of the Supreme Court of the
United States, a response currently is due on May 17, 2021. Respondents intend to
file a joint brief in opposition to the petition. Pursuant to Rule 30.4, respondents
jointly request that the time for filing a response be extended by 30 days, to and
including June 16, 2021.
This is respondents’ first request for an extension of time to file a response. Good cause
exists for the requested extension. Due to COVID-19, we have been working remotely,
A S S I S T A NT C OU NT Y AT T OR NE Y S
M. COLE EMMONS

LISA A. KIRKMAN

MARY RITCHIE

NATHAN J. WHITNEY

CHRISTOPHER M.
STRIDER

LORI L. SEAGO

STEVEN A. KLAFFKY

BRYAN E. SCHMID

MICHAEL J.
DESMOND

TERRY A. SAMPLE

Hon. Scott S. Harris, Clerk of the Court, Supreme Court of the United States
Friday, May 14, 2021
Page 2
making preparation of the brief in opposition logistically more difficult. Neither I nor
Ms. Massey represented the respondents in this case in the district court or court of
appeals. My colleague, Bryan Schmid, represented Mr. Mitchell in the lower courts.
Ms. Massey’s colleague, Anne Turner, represented the City Respondents in the lower
courts. Mr. Schmid and Ms. Turner intend to continue their representation of the
respondents in this Court. But Mr. Schmid and Ms. Turner have not yet been admitted
to practice before the Supreme Court of the United States. They await the Clerk’s
action on their admission applications. In addition, apart from this case, I and Mr.
Schmid, and Ms. Massey and Ms. Turner represent, respectively, El Paso County and
the City of Colorado Springs and their officials and employees in many other matters
that will require us to devote substantial amounts of time in the coming weeks.
Furthermore, the response must be reviewed by multiple attorneys within the El Paso
County Attorney’s Office and Colorado Springs City Attorney’s Office. An extension of
time would better enable preparation of a response that would be most helpful to the
Court.
Accordingly, respondents respectfully request that the time for filing a response to the
petition for writ of certiorari be extended by 30 days, to and including June 16, 2021.
Petitioner, Candace Aguilera, has informed us by email that she “is opposed to any
time extensions.”
Sincerely,
OFFICE OF THE COUNTY ATTORNEY OF
EL PASO COUNTY, COLORADO

OFFICE OF THE CITY ATTORNEY OF THE
CITY OF COLORADO SPRINGS, COLORADO

/s/ Nathan J. Whitney
Nathan J. Whitney,
Senior Assistant County Attorney
200 South Cascade Avenue
Colorado Springs, CO 80903
(719) 520-6485
nathanwhitney@elpasoco.com

/s/ Wynetta Massey______
Wynetta Massey, City Attorney
30 S. Nevada Ave.
Suite 501
Colorado Springs, CO 80903
(719) 385-5909
Wynetta.Massey@coloradosprings.gov

Counsel of Record for Respondent
Robert Mitchell

Counsel of Record for Respondents
City of Colorado Springs, Danielle
McClarin, Angie Nieves, Roger Vargason,
and Brett Lacey

cc:

Candace Sgaggio (via overclock420@hotmail.com)
Anne H. Turner (via anne.turner@coloradosprings.gov)
Bryan Schmid (via bryanschmid@elpasoco.com)

